        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Federal Energy Regulatory
Commission's Monitoring of Power
Grid Cyber Security




DOE/IG-0846                      January 2011
                                  Department of Energy
                                     Washington, DC 20585
                                         January 26, 2011


MEMORANDUM FOR THE CHAIRMAN, FEDERAL ENERGY REGULATORY COMMISSION


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                  INFORMATION: Audit Report on the "Federal Energy Regulatory
                          Commission's Monitoring of Power Grid Cyber Security"
BACKGROUND
Congress passed the Energy Policy Act of 2005 (Energy Policy Act), giving the Federal Energy
Regulatory Commission (Commission) jurisdiction to conduct oversight of the bulk power
system, commonly referred to as the bulk electric system or power grid, including the approval
of mandatory cyber security reliability standards. The bulk electric system consists of
approximately 1,600 entities operating at 100 kilovolts or higher. The system does not, however,
include distribution to end-users, as that function remains under the jurisdiction of state public
utility commissions.
In July 2006, the Commission, as authorized in the Energy Policy Act, designated the North
American Electric Reliability Corporation (NERC) as the Electric Reliability Organization
(ERO). As the ERO, NERC has the sole authority to propose reliability standards for the power
grid to the Commission for approval. NERC developed Critical Infrastructure Protection (CIP)
cyber security reliability standards which were approved by the Commission in January 2008.
Entities performing the most essential bulk electric system functions were required to comply
with 13 of the CIP requirements by June 2008, with the remaining requirements phased in
through 2009. NERC designated, with the Commission's approval, eight regional entities with
responsibility for ensuring compliance with the reliability standards through audits and
investigations of the registered entities. The Commission is responsible for maintaining
oversight of NERC and its regional entities.
Security over the Nation's power grid remains a critical area of concern. Recent testimony
before Congress disclosed various issues, including the existence of significant vulnerabilities in
the power grid's infrastructure and many utilities that were not in compliance with the standards.
Because of the importance of its efforts to secure the bulk electric system, we initiated this audit
to determine whether the Commission adequately monitored cyber security over the Nation's
power grid.
RESULTS OF AUDIT
Although the Commission had taken steps to ensure CIP cyber security standards were
developed and approved, our testing revealed that such standards did not always include controls
commonly recommended for protecting critical information systems. In addition, the CIP
                                                 2


standards implementation approach and schedule approved by the Commission were not
adequate to ensure that systems-related risks to the Nation's power grid were mitigated or
addressed in a timely manner. In particular:

   •   Despite their importance to protecting the power grid, the CIP standards did not include a
       number of security controls commonly recommended for government and industry
       systems, including both administrative and mission-related systems. For instance, the
       standards did not include essential security requirements and effective practices such as
       defining what constituted critical assets and implementation of strong logical access
       controls. In certain cases, Commission officials noted that the lack of stringent
       requirements for defining critical assets contributed to significant under reporting of these
       assets. In addition, while we recognize that there are inherent delays associated with the
       current regulatory structure, we found that the timeliness of the standards development
       and approval process was also impacted because the Commission did not take advantage
       of existing authority. Delays ultimately limited the standards' usefulness in facilitating
       responses to emerging threats. Without increased efficiency in this area, the Commission
       and the entities under its purview may not be able to develop and implement future
       standards in a timely manner to address emerging security threats; and,

   •   The Commission approved an implementation approach and schedule for the CIP
       standards that did not adequately consider risks to information systems. In particular, the
       Commission approved an approach whereby controls designed to mitigate higher risk
       threats were not required to be implemented before other controls related to
       documentation. For example, implementation of technical controls related to system
       access, patch management, and malware prevention were delayed, while documentation
       requirements such as reporting cyber security incidents and creating a recovery plan were
       given priority. While these controls must eventually be implemented, concentrating risk-
       based efforts on strong technical controls, rather than on creating documentation could
       have helped strengthen early implementation efforts. In addition, all entities were not
       required to comply with the CIP standards at the same time even though they may have
       encountered similar threats and the interconnectivity of the power grid, factors that could
       permit a breach at one entity to have a severe impact on other entities. As the
       Commission works toward approving updated standards in the future, it should ensure
       that those controls designed to address the most serious threats are given priority.

We found that these problems existed, in part, because the Commission had only limited
authority to ensure adequate cyber security over the bulk electric system. While the Energy
Policy Act established the Commission's authority to approve, remand, or direct changes to
proposed reliability standards, the Commission did not have the authority to implement its own
reliability standards or mandatory alerts in response to emerging threats or vulnerabilities.
However, even in situations where authority did exist, such as the authority to approve, remand,
or direct changes to the CIP standards, the Commission had not always acted to ensure that cyber
security standards were adequate. In addition, the Commission had not always effectively
monitored how NERC and the regional entities assessed implementation of the cyber security
standards.
                                                3


Without improvements, the Commission may not be able to provide adequate oversight to ensure
that cyber security vulnerabilities within the power grid are identified and mitigated. Notably,
the Commission has participated in a number of reliability standards reviews at entities and
continues to work with Congress to obtain authority appropriate for ensuring adequate cyber
security over the bulk electric system. Additionally, the Commission has worked with NERC to
establish mandatory standards, including providing NERC with numerous directives identifying
ways to improve the standards. While these are positive steps, additional action is needed. As
such, we have made several recommendations that, if fully implemented, should help improve
the overall effectiveness of the Commission's ability to monitor security over the Nation's power
grid.

MANAGEMENT REACTION

Management fully concurred with three of the report's recommendations and agreed with the
intent of the remaining two. Management, however, expressed concerns with a number of
assertions made in our report. Management's comments, including its concerns and our response
are more thoroughly discussed in the body of the report and are included in Appendix 3.

Attachment

cc:    Executive Director, Federal Energy Regulatory Commission
       Deputy Secretary
REPORT ON THE FEDERAL ENERGY REGULATORY
COMMISSION'S MONITORING OF POWER GRID CYBER
SECURITY

TABLE OF
CONTENTS


Power Grid Cyber Security

Details of Finding ................................................................................................................1

Recommendations and Comments .....................................................................................11


Appendices

1.    Objective, Scope, and Methodology ..........................................................................16

2.    Related Reports ..........................................................................................................18

3.    Management Comments .............................................................................................20
FEDERAL ENERGY REGULATORY COMMISSION'S MONITORING
OF POWER GRID CYBER SECURITY

Ensuring Security       The Energy Policy Act of 2005 (EPAct) gave the Federal
of the Nation's Power   Energy Regulatory Commission (Commission) jurisdiction
Grid                    to conduct oversight of the bulk electric system, or power grid,
                        including the approval of mandatory cyber security reliability
                        standards. The Commission, as authorized in the EPAct,
                        designated the North American Electric Reliability Corporation
                        (NERC) as the Electric Reliability Organization (ERO) in
                        July 2006. As the ERO, NERC has exclusive authority to
                        propose reliability standards to the Commission for approval.
                        To help support its mission, NERC designated, with the
                        Commission's approval, eight regional entities with
                        responsibility for ensuring compliance with reliability
                        standards through audits and investigations of registered
                        entities such as reliability coordinators, balancing authorities,
                        and transmission operators. The Commission, however, was
                        ultimately responsible for maintaining oversight functions of
                        NERC and its regional entities.

                        As required by the EPAct, the Commission had taken steps to
                        ensure that Critical Infrastructure Protection (CIP) standards
                        related to cyber security were in place to help protect the bulk
                        electric system. Our current review, however, established that
                        despite the critical nature of systems used to control the power
                        grid, those standards did not include security controls
                        commonly recommended for administrative and mission-
                        related systems maintained by government and industry. In
                        addition, the Commission approved an implementation
                        approach and schedule for the CIP standards that did not
                        adequately consider risk to the information systems.

                                            CIP Reliability Standards

                        The cyber security standards developed by NERC, and
                        approved by the Commission, did not always include
                        commonly recommended controls designed to maintain the
                        confidentiality, integrity and availability of systems and the
                        information they contain. In particular, security controls
                        commonly found in non-critical administrative and mission-
                        related systems within government and industry entities were
                        not always required by these initial mandatory standards. For
                        example, the standards did not clearly define what constituted a
                        critical asset or critical cyber asset. Absent a standard
                        definition, entities that are part of the bulk electric system were
                        permitted to use their discretion when identifying critical assets
                        and critical cyber assets, a practice that could have allowed

________________________________________________________________
Page 1                                                Details of Finding
                                    them to determine whether the cyber security standards were
                                    even applicable to their organization. Specifically, if an entity
                                    determined that no critical assets or critical cyber assets
                                    existed, it was exempt from the remaining original CIP
                                    standards. As noted by the National Institute of Standards and
                                    Technology (NIST), accurate inventories are a key initial step
                                    in determining what system elements are exposed to security
                                    risks.

                                    When outlining what attributes should be considered when
                                    proposing reliability standards, the Commission noted in Order
                                    672 – the order that outlined ERO duties and expectations
                                    regarding cyber security standards – that CIP reliability
                                    standards should be clear and unambiguous regarding what is
                                    required and who is required to comply. The Commission
                                    noted that such clarity was necessary because users, owners
                                    and operators of the bulk electric system must know what they
                                    are required to do to maintain reliability. Despite this
                                    guidance, both Commission and NERC officials stated that
                                    they believed entities were under-reporting the number of
                                    critical assets and associated critical cyber assets. For
                                    example, even though critical assets could include such things
                                    as control centers, transmission substations, and generation
                                    resources, the former NERC Chief Security Officer noted in
                                    April 2009, that only 29 percent of generation owners and
                                    operators, and less than 63 percent of transmission owners1
                                    identified at least one critical asset on a self-certification
                                    compliance survey. Commission officials recently stated that
                                    subsequent filings by entities have not shown significant
                                    improvement in the reporting of critical assets. In recognition
                                    of continuing issues with the NERC proposed standards, the
                                    Commission approved the CIP standards by issuing Order 706,
                                    but acknowledged the need for additional guidance. The
                                    Commission also directed NERC to make extensive changes
                                    for enhancing the CIP standards, including the identification of
                                    critical assets.

                                    Even when entities identified critical cyber assets and the
                                    standards did apply, the standards did not always incorporate
                                    essential security requirements and practices demonstrated to
                                    be effective at protecting less critical government and industry
                                    systems. For example, one of the CIP standards directed that
                                    passwords be a minimum of six characters and changed at least
1
 A generation owner/operator is an entity that owns and/or maintains generating units that produce electrical
energy (power plants). A transmission owner is an entity that owns transmission facilities that transfer
electricity from generating power plants to bulk delivery points known as substations.
________________________________________________________________
Page 2                                                Details of Finding
                       annually. However, suggested government and industry
                       practices developed at least 3 years prior to the standard's
                       approval recommended that passwords contain a minimum of 7
                       characters with a typical maximum life of 30 to 90 days. In
                       addition, the Commission's own internal policy requires
                       passwords to be at least 12 characters long and changed every
                       60 days. Although some legacy equipment may not be able to
                       accommodate longer passwords, mitigating controls for these
                       exceptions should be considered on a case by case basis rather
                       than lowering the security requirements for all critical assets.
                       Other common logical access controls such as limits on the
                       number of unsuccessful login attempts, notification of previous
                       login information, and providing for a session lock/termination
                       for inactivity were also not addressed in the standards.
                       Implementing access controls such as these, where feasible, is
                       an important part of an effective defense-in-depth strategy to
                       securing cyber assets and protecting the public's interest.

                       While we are not advocating any particular set of standards,
                       organizations such as the SANS Institute, ISACA (formerly
                       known as the Information Systems Audit and Control
                       Association), and NIST provide commonly recommended
                       security controls designed to protect both administrative and
                       critical infrastructure systems. In addition, the Commission
                       indicated in its Order 706 that it expected NERC to consider
                       NIST guidance in developing future versions of the CIP
                       standards and determine whether it contained provisions that
                       would better protect the bulk electric system. As demonstrated
                       in our report, we believe that considering best practices
                       recommended by other entities, such as those noted above,
                       could aid the electric industry with protecting its information
                       systems.

                                         Development and Approval

                       We also found that the standards development and approval
                       process was not timely, thereby limiting the usefulness of the
                       standards in addressing emerging cyber security threats.
                       Specifically, we noted that it took at least 41 months for the
                       initial CIP standards to be developed, approved and fully
                       implemented. In particular, we found that development of the
                       CIP standards began prior to NERC being certified by the
                       Commission in July 2006, but the standards did not receive
                       Commission approval until January 2008. We acknowledge
                       that the standards development process requires extensive
                       public input under the existing regulatory structure and was a
________________________________________________________________
Page 3                                                Details of Finding
                       significant effort for the Commission, NERC, and industry
                       officials. However, as significant changes to the standards are
                       anticipated in the near future, we believe that industry and the
                       Commission can continue to work toward streamlining the
                       process. For example, industry officials noted that there are
                       ongoing efforts to reduce the comment and balloting periods,
                       combine comments to allow for fewer responses, and modify
                       the balloting process to vote only on changes to the standards
                       rather than the entire standard. In addition, one Commission
                       official noted that the standards development process could be
                       streamlined by potentially eliminating the preliminary staff
                       assessment period which allows for public comment and can
                       last approximately six months. In September 2010, the
                       Commission approved changes to the standards development
                       process that should reduce the amount of time required to
                       develop new standards. As additional revisions are made to the
                       reliability standards, ensuring the process is thorough but
                       streamlined, while working within the existing statutory
                       framework, could enhance the ability of entities to respond to
                       emerging threats and the constantly changing cyber security
                       environment.

                                      Risk-Based Approach to Security

                       The Commission approved an implementation approach and
                       schedule for the CIP standards that did not adequately consider
                       risks to information systems. Specifically, the Commission
                       approved an approach whereby controls designed to mitigate
                       higher risk threats were not required to be implemented before
                       other controls related to documentation. In addition, all entities
                       were not required to comply with the CIP standards at the same
                       time even though they may have been interconnected and
                       encountered similar threats.

                       In particular, certain entities were required to be compliant
                       with 13 of the 41 CIP requirements by June 2008. Although
                       the 13 requirements included controls related to documentation
                       such as reporting cyber security incidents and creating a
                       recovery plan, the remaining technical requirements, including
                       access controls, patch management, and malware prevention
                       tools, were not required to be implemented until the following
                       year. A Commission official stated that the attempt was to
                       focus on implementing those requirements that could most
                       likely be applied at the entities first. However, in taking such
                       an approach, the Commission did not give adequate
                       consideration of the risk to the bulk electric system and was not
________________________________________________________________
Page 4                                                Details of Finding
                       able to ensure the most critical protections were applied first.
                       During the course of our review, Commission officials noted
                       that a new version of the CIP standards was currently under
                       development, which could result in the need for a similar
                       implementation plan used for the initial version of the
                       standards. As future versions of the CIP standards are
                       implemented, priority should be placed on those requirements
                       providing the most critical protections to information systems.

                       In addition, all entities were not required to comply with the
                       CIP standards at the same time, even though they may have all
                       been interconnected to the bulk electric system. In particular,
                       the initial implementation plan segregated the users, owners,
                       and operators of the bulk electric system into four groups. As
                       such, some of the largest entities, such as reliability
                       coordinators and balancing authorities, were required to be
                       compliant with certain standards by June 2008, while other
                       entities, including generation owners and operators, had until
                       December 2009 to comply. As noted by several individuals we
                       spoke with during the review, this approach did not consider
                       that entities connected to the power grid were dependent on
                       one another and that a breach at one entity could potentially
                       have a negative impact on other entities and the power grid as a
                       whole. The Defense Science Board also reported in 2008 that
                       critical national security and homeland defense missions were
                       at an unacceptably high risk of extended outage from failure of
                       the commercial electric power grid, due in part to the grid's
                       increased reliance on automated control systems that are
                       susceptible to cyber attack. As the Commission is expecting a
                       significant revision to the current standards in the near future, it
                       will be important to ensure that risk to the power grid is
                       adequately considered when developing an implementation
                       plan.

Commission Authority   These problems occurred, in part, because the Commission had
and Performance        only limited authority to direct implementation of adequate
Monitoring             cyber security practices over the bulk electric system.
                       However, even when authority did exist, Commission officials
                       had not always used that authority to ensure that cyber security
                       standards were adequate. In addition, the Commission had not
                       effectively monitored performance of NERC and the regional
                       entities to which it had delegated certain oversight
                       responsibilities.




________________________________________________________________
Page 5                                                Details of Finding
                            Commission Authority Under the Energy Policy Act

                       The Commission had only limited authority to ensure adequate
                       cyber security of the power grid. The EPAct established the
                       Commission's authority to approve, remand or direct changes
                       to proposed reliability standards submitted by NERC.
                       However, the Commission did not have the authority to
                       develop its own reliability standards or mandatory alerts,
                       including those in response to emerging threats or
                       vulnerabilities. Instead, NERC developed the standards
                       through its open development process and submitted them to
                       the Commission for review. Commission officials have
                       testified numerous times before Congress to request expanded
                       authority under the EPAct. In June 2010, the U.S. House of
                       Representatives passed the Grid Reliability and Infrastructure
                       Defense Act that could allow the Commission to issue
                       emergency orders to protect the reliability of the bulk electric
                       system when the President declares an imminent threat to grid
                       security. However, the proposed law does not change the
                       reliability standards setting process in non-emergency
                       situations.

                                              Standards Setting

                       Although the Commission had the authority to approve,
                       remand, or direct changes to the CIP standards, it had not
                       sufficiently used that authority to ensure that requested changes
                       to the standards were made in a timely manner. The
                       Commission approved the original CIP standards in
                       January 2008, while simultaneously directing multiple changes.
                       Commission officials commented that the standards were
                       approved even though they were not sufficient so that
                       requirements could be in place and because of the amount of
                       time it took for NERC to initially develop the standards. For
                       instance, one senior Commission official testified before
                       Congress that since the Commission may not modify a
                       proposed reliability standard, it would have the choice of
                       approving a standard that may not be adequate and directing
                       changes, which reinitiates a process that can take years, or
                       rejecting the standard altogether. The Commission approved
                       the CIP standards and directed changes within Order 706.

                       We appreciate the need to establish baseline standards, but note
                       that timely correction of the many weaknesses in the initial
                       standards is critical as well. We found, however, that the
                       Commission could have, but did not impose specific deadlines
________________________________________________________________
Page 6                                                Details of Finding
                       for the ERO to incorporate changes to the CIP standards.
                       Although NERC subsequently provided revised standards to
                       the Commission for review and approval and continues to
                       revise standards, one Commission official noted that as many
                       as 95 percent of the original changes directed by the
                       Commission had not been addressed. For instance, changes
                       related to how NERC ensures completeness of critical asset
                       lists, use of forensic data collection practices and procedures in
                       recovery planning, and consideration of the NIST framework
                       when developing future iterations of standards, had not been
                       included in updated CIP standards. In accordance with the
                       EPAct, the Commission may take "such action as is necessary
                       or appropriate against the ERO or a regional entity to ensure
                       compliance with a reliability standard or any Commission
                       order affecting the ERO or a regional entity." The Commission
                       disclosed in Order 672 that such actions may include imposing
                       civil penalties on the ERO or a regional entity or suspending or
                       rescinding the ERO's certification or regional entity's delegated
                       authority.

                       In addition, industry officials told us that they did not believe
                       that the Commission was adequately communicating with their
                       organizations during the standards development and approval
                       process. A panel of industry representatives we spoke with
                       noted that once a filing is made with the Commission, they are
                       not provided any information until the Commission issues a
                       notice of proposed rulemaking or an order. The panel
                       explained that large amounts of time can elapse with no
                       communication from the Commission as to the status of
                       proposed filings. In addition, industry representatives stated
                       that although the Commission had become more involved
                       earlier in the standards development process, the industry
                       would like additional input from the Commission concerning
                       its expectations of what should be included in the standards. In
                       preliminary comments on our report, Commission officials
                       noted that they participated in numerous spot checks and
                       standards development meetings, and regularly held conference
                       calls with various stakeholders. While these were productive
                       activities, increased Commission participation and
                       communication may have allowed industry entities to better
                       understand expectations and could ultimately lead to shorter
                       approval times and fewer directed changes.




________________________________________________________________
Page 7                                                Details of Finding
                               Performance Monitoring and Risk Management

                       The Commission had not adequately monitored the
                       performance of NERC and the eight regional entities
                       responsible for ensuring cyber security over the bulk electric
                       system. Specifically, the Commission's performance
                       monitoring did not include actions such as directing changes to
                       NERC's implementation plan for the CIP standards or
                       conducting a formal review of NERC. In addition, the
                       Commission did not direct that performance metrics be
                       included in delegation agreements between NERC and its
                       regional entities.

                       We found that the Commission had not ensured that the
                       implementation of the CIP reliability standards addressed
                       overall risk to the power grid. In January 2008, the
                       Commission simultaneously approved the original CIP
                       standards and NERC's proposed implementation plan for when
                       entities should comply with the mandatory standards. While
                       the Commission believed the implementation plan was
                       reasonable, we noted that the staggered implementation plan
                       did not account for the interconnected nature of the bulk
                       electric system nor ensure that the most critical protections
                       were applied initially. In addition, as noted previously in the
                       report, the implementation plan required that controls related to
                       documentation be implemented before more technical
                       requirements related to access controls, patch management, and
                       malware prevention. Going forward, we believe that the
                       Commission should consider overall risk to the power grid
                       when determining how to implement future reliability
                       standards.

                       We also found that the process used by the regional entities to
                       evaluate compliance with standards was not adequate to ensure
                       the Commission or NERC were aware of cyber security
                       weaknesses identified by auditors or other reviewers.
                       Specifically, even when auditors did note other areas of
                       concern that were not deemed a violation of the standards, such
                       as critical asset identification or flaws in security or
                       contingency plans, these concerns were only addressed at the
                       entity being reviewed and not in formal audit or spot-check
                       reports sent to NERC and the Commission. As a result, NERC
                       and the Commission were only made aware of violations
                       regarding administrative or documentation issues, such as
                       missing signatures or delayed training, rather than issues with
                       the design and implementation of more technical controls. In
________________________________________________________________
Page 8                                                Details of Finding
                       preliminary comments on our report, Commission officials
                       noted that auditors were instructed to document any
                       discussions of areas of concern with the entity being reviewed
                       in the audit or spot-check reports. However, we found that
                       regional entity auditors were not documenting such discussions
                       in their reports.

                       At the time of our review, the Commission also had not, in our
                       view, performed adequate reviews of NERC or regional
                       entities' oversight processes. For instance, while the
                       Commission participated in 10 of 54 CIP audits or spot checks
                       conducted during 2009 by the regional entities, it had not
                       conducted its own compliance audits of NERC, the regional
                       entities, or registered entities. In addition, NERC completed a
                       self-assessment in July 2009; however, we found that NERC's
                       assessment of regional entities focused on the violations
                       process, including the amount and timeliness of violations
                       issued by the regional entity. Assessments did not always
                       include risk-based qualitative evaluations of the audit processes
                       used by each of the regional entities that determined whether
                       violations of the cyber security standards had occurred. For
                       instance, officials at one regional entity stated that NERC never
                       visited their organization in support of the assessment or asked
                       the region for documentation to assess their performance.
                       Absent an effective oversight strategy, the Commission may be
                       unable to ensure that NERC is adequately addressing
                       requirements or may be unaware of the true state of cyber
                       security within the power grid.

                       The Commission had not ensured that delegation agreements
                       between NERC and the regional entities included performance
                       metrics related to spot-checks or audits that would have
                       enabled the Commission to monitor progress. For instance, no
                       metrics were used to evaluate the number of audits completed,
                       amount of time to complete an audit, and recommendations
                       leading to corrective actions. When the Commission approved
                       the eight regional entity delegation agreements in April 2007, it
                       directed that only minor modifications be made for uniformity
                       and clarity. Although NERC and the regional entities recently
                       proposed revised delegation agreements, the regional entities
                       continue to operate with limited formal oversight from the
                       Commission. Specifically, the proposed delegation agreements
                       would permit NERC to develop, in collaboration with the
                       regional entities, performance goals and measures, which could
                       be used to measure NERC's and the regional entities'
                       performance. While inclusion of performance metrics within
________________________________________________________________
Page 9                                                Details of Finding
                       the delegation agreements is a positive step, allowing NERC
                       and the regional entities to develop their own measures may
                       continue to limit the Commission's oversight capabilities.

Information Security   Without improving its authority and oversight process related
and Assurance          to protecting the Nation's power grid, the Commission may be
                       unable to ensure that cyber security vulnerabilities are
                       mitigated or that the effects of weaknesses are minimized. The
                       current Administration and intelligence officials have
                       expressed concerns over security for the Nation's power grid,
                       noting that intruders have probed the power grid and cyber
                       attacks have occurred against electrical and other critical
                       infrastructure elsewhere. In addition, industry representatives
                       indicated that, although becoming more streamlined, both the
                       current standards and those in development cannot address
                       advanced persistent threat attacks against the power grid.

                       Absent adequate standards, the compliance-based monitoring
                       program used by NERC and the regional entities limits the
                       Commission's ability to monitor the power grid's true cyber
                       security posture. Specifically, the current CIP standards and
                       compliance monitoring program may not allow the regional
                       entities to review the highest risk aspects of power grid cyber
                       security. For example, one regional entity auditor noted an
                       entity could have a contingency plan that contained incomplete
                       or erroneous instructions outlining actions to take during an
                       emergency situation, but still meet the standard since a plan
                       existed. While the CIP standard requiring a contingency plan
                       would have been met in this case, the plan would have
                       provided only limited benefit to the security of the power grid.
                       In addition, the CIP standards did not support the use of
                       vulnerability scanning or penetration testing by NERC, or the
                       regional entities conducting oversight – two methods for
                       identifying potential weaknesses in an entity's cyber security
                       posture.

                       Furthermore, sustained power failures within the North
                       American power grid can be quite costly, as evidenced by the
                       estimated $10 billion in economic loss from the 2003 Northeast
                       blackout. In addition, the Department of Energy's
                       (Department) Idaho National Laboratory, in conjunction with
                       the Department of Homeland Security, recently illustrated that
                       a cyber attack upon a power grid generator could potentially
                       cause it to self-destruct. This experiment, called the Aurora
                       Project, demonstrated how efforts to transfer control of
                       generation and distribution equipment from internal networks
________________________________________________________________
Page 10                                               Details of Finding
                     to systems that could be accessed through the Internet have
                     opened the power grid to additional cyber security
                     vulnerabilities. Furthermore, a Department report recently
                     identified many vulnerabilities with systems supporting the
                     Nation's critical infrastructure, including weaknesses that were
                     inexpensive and easy to address, such as missing software
                     security patches and weak password management. As entities
                     continue to upgrade systems to platforms connected to the
                     Internet, the risks to the power grid will continue to increase.

                     In addition, as noted in a recent survey conducted by industry
                     and the Center for Strategic and International Studies, more
                     than half of the operators of power plants and other "critical
                     infrastructure" components reported that their computer
                     networks had been infiltrated by sophisticated adversaries.
                     Furthermore, during recent testimony to Congress, the Director
                     of National Intelligence stated that the cyber security threat
                     was growing at an unprecedented rate and stressed the need for
                     increased cooperation between government and industry to
                     help alleviate the threats. The importance of implementing
                     effective cyber security measures over the power grid was
                     recently highlighted by the discovery of sophisticated malware
                     within various industrial control systems. An industry expert
                     also noted that there have been more than 125 industrial control
                     system incidents resulting in impacts ranging from
                     environmental and equipment damage to death. Without an
                     adequate risk-based approach to cyber security, the
                     Commission and its affiliated organizations may not be able to
                     identify and mitigate cyber security vulnerabilities, thus
                     exposing the power grid to malicious attacks.

RECOMMENDATIONS      To help improve security over the Nation's power grid, we
                     recommend that, as part of a risk-based cyber security
                     approach, the Chairman, Federal Energy Regulatory
                     Commission:

                        1. Continue to work with Congress to obtain authority
                           appropriate for ensuring adequate cyber security over
                           the bulk electric system;

                        2. Work with NERC to continue refining the CIP
                           standards to include risk-based requirements and cyber
                           security controls to help minimize vulnerabilities to the
                           power grid;

                        3. Ensure timely development and approval of the CIP
                           standards, as practical, including increasing
________________________________________________________________
Page 11                                 Recommendations and Comments
                            communication with NERC and electric industry
                            entities during the process;

                        4. Ensure the Commission adequately monitors the
                           performance of NERC and the eight regional entities
                           responsible for security over the bulk electric system;
                           and,

                        5. Ensure that cyber security performance metrics for
                           NERC and its regional entities are developed and
                           utilized that enable the Commission to effectively
                           monitor and assess program performance.

MANAGEMENT           Management fully concurred with Recommendations 1, 4,
REACTION AND         and 5 and agreed with the intent of Recommendations 2
AUDITOR COMMENTS     and 3. Management's response indicated concerns with a
                     number of assertions made in our report. We have addressed
                     management's comments below and made technical changes to
                     the report, as appropriate. Management's comments are
                     included in Appendix 3.

                     Management commented that the Commission lacked the
                     authority to develop or modify reliability standards – indicating
                     that it can only approve or remand standards developed by
                     NERC or direct changes to a standard as part of the approval
                     process. Management commented that it believed the report
                     suggested government and industry practices should be made
                     mandatory for bulk electric system users, owners, and
                     operators. Management also indicated that the CIP standards
                     require strong access controls and that the Commission
                     directed NERC to develop a case-by-case exceptions process
                     for handling controls on legacy equipment, which NERC did
                     via technical feasibility exceptions.

                     We agree that while the Commission could not develop its own
                     standards, it had the authority to approve, remand, or direct
                     changes to standards. However, the EPAct did provide the
                     Commission with the authority to order NERC to submit new
                     or modified standards that address specific matters it deemed
                     appropriate, an authority the Commission had not fully
                     exercised. Furthermore, we are not recommending that
                     suggested government and industry practices be made
                     mandatory for bulk electric system users, owners, and
                     operators. However, these controls have proven effective in
                     protecting less critical systems and could be used as a guideline
                     when developing future CIP standards. As discussed in the


________________________________________________________________
Page 12                                                    Comments
                     report, we believe the standards should establish meaningful
                     minimum requirements and allow for exceptions on a case-by-
                     case basis.

                     Management commented that effective cyber security
                     standards cannot be developed at the pace suggested in the
                     draft report under the existing statutory framework, noting that
                     the EPAct requires industry deliberation and input on the
                     development of standards. Management also stated that the
                     draft report minimized the complexities inherent in imposing
                     the initial set of mandatory cyber security standards.

                     As noted in the report, we acknowledged that the initial
                     standards development process was a significant effort for the
                     Commission, NERC, and industry officials. However, during
                     our audit work we learned from Commission and industry
                     officials that efforts to streamline the standards development
                     process were underway. Going forward, these efforts will be
                     important as the standards continue to be refined. As noted in
                     our report, NERC proposed and the Commission approved in
                     September 2010 changes to streamline the standards
                     development process, which was consistent with our report's
                     recommendations.

                     Management commented that the report criticized the
                     Commission's decision to approve the CIP standards knowing
                     their deficiencies. Management further stated that the
                     approved standards represented a baseline and that the
                     Commission concurrently directed substantial and numerous
                     modifications to the standards as they were approved.

                     As noted in the final report, we do not question the
                     Commission's decision to approve the initial CIP standards.
                     However, we found that the existing standards were not
                     adequate and only minor revisions to the standards had been
                     approved since the Commission directed numerous changes in
                     January 2008.

                     Management commented that the most critical protections
                     would vary among entities and assets that make up the bulk
                     electric system. Management also commented that the phased
                     approach to standards implementation was influenced by two
                     factors, including the need to put in place as much cyber
                     security as possible as soon as possible and the level at which
                     some entities had already implemented cyber security



________________________________________________________________
Page 13                                                    Comments
                     standards. Management commented that the CIP standard
                     implementation plan was reasonable for the initial set of
                     industry-wide standards.

                     We agree that the most critical protections may vary among
                     entities. However, while we agree that it was necessary to put
                     in place as much cyber security as possible as soon as possible,
                     we do not believe the CIP standard implementation plan
                     accomplished that goal. As noted in the report, controls
                     required to be implemented first were primarily related to
                     documentation and not technical controls. In addition, the
                     implementation plan approved by the Commission allowed
                     entities of varying functions and sizes to stagger compliance
                     timeframes without adequate consideration of the maturity of
                     existing cyber security programs.

                     Management commented that it had provided adequate
                     performance monitoring of NERC and regional entities.
                     Management noted that it had participated in spot
                     check/compliance audits, agreed-upon procedures conducted
                     by NERC, and periodic phone conferences. In addition,
                     management cited four audits it had completed on regional
                     entities and the three-year self-assessment NERC completed as
                     the ERO. Management also commented that it had been
                     actively involved in working with NERC to develop
                     meaningful delegation agreement performance metrics.

                     As noted in the report, we credited the Commission for
                     participating in CIP audits or spot checks. However, we noted
                     that the four audits management cited in its comments were not
                     assessments of regional entity oversight performance, but
                     rather were conducted to determine whether the four regional
                     entities could appropriately conduct their bulk electric system
                     function and oversight activities independently. For instance,
                     officials at one regional entity we visited commented that the
                     Commission's independent assessment was completed before
                     the region's CIP process was operational and thus did not
                     review the process.

                     Management commented that it would be unrealistic to be
                     aware of all potential cyber security weaknesses. In addition,
                     management commented that CIP standards reporting
                     requirements were designed with an emphasis on limiting the
                     exposure of sensitive critical information to unauthorized
                     parties. Management commented that in January 2009, the



________________________________________________________________
Page 14                                                    Comments
                     Commission provided guidance to the regional entities that
                     their reports should address concerns that do not yet rise to the
                     level of CIP standard violations.

                     We agree with the Commission that it may not be reasonable to
                     expect all cyber security weaknesses to be known. However,
                     our concern was that the Commission and NERC may not have
                     been made aware of all vulnerabilities identified by regional
                     entities. As such, if identified weaknesses and threats to the
                     bulk electric system are not presented to NERC and the
                     Commission, necessary standards may not be developed and
                     approved to adequately protect the bulk electric system against
                     those vulnerabilities.




________________________________________________________________
Page 15                                                    Comments
Appendix 1

OBJECTIVE              To determine whether the Federal Energy Regulatory
                       Commission (Commission) adequately monitored cyber
                       security over the Nation's power grid.

SCOPE                  The audit was performed between October 2009 and
                       November 2010, at the Commission in Washington, DC; SERC
                       Reliability Corporation, Charlotte, North Carolina;
                       ReliabilityFirst Corporation, Akron, Ohio; and, the Western
                       Electricity Coordinating Council, Vancouver, Washington. In
                       addition, we held teleconference calls with officials from the
                       North American Electric Reliability Corporation (NERC). We
                       also met with a panel of electric industry officials, including
                       representatives from generation and transmission owners. We
                       reviewed how the Commission monitored cyber security over
                       the power grid and how NERC and a sample of the regional
                       entities implemented the compliance monitoring program. Our
                       work did not include a determination of whether bulk electric
                       system entities were in compliance with the critical
                       infrastructure protection reliability standards.

METHODOLOGY            To accomplish our objective, we:

                                Reviewed critical infrastructure protection reliability
                                standards, as well as Federal regulations and
                                Commission orders and guidance pertaining to those
                                standards;

                                Reviewed prior reports issued by the Office of
                                Inspector General and the Government Accountability
                                Office;

                                Held discussions with responsible officials from the
                                Commission and NERC;

                                Held discussions with a sample of regional entity
                                officials to determine how they conducted reliability
                                standard compliance monitoring; and,

                                Met with a panel of representatives from various
                                electric industry companies and organizations to
                                obtain their perspective on reliability standards
                                development, implementation, and compliance
                                monitoring.

                       We conducted this performance audit in accordance with
                       generally accepted Government auditing standards. Those
                       standards require that we plan and perform the audit to obtain

________________________________________________________________
Page 16                                Objective, Scope, and Methodology
Appendix 1 (continued)

                       sufficient, appropriate evidence to provide a reasonable basis
                       for our findings and conclusions based on our audit objectives.
                       We believe the evidence obtained provides a reasonable basis
                       for our findings and conclusions based on our audit objectives.
                       The audit included tests of internal controls and compliance
                       with laws and regulations to the extent necessary to satisfy the
                       audit objective. Because our review was limited, it would not
                       necessarily have disclosed all internal control deficiencies that
                       may have existed at the time of our audit. We also assessed
                       performance measures in accordance with the Government
                       Performance and Results Act of 1993 relevant to ensuring
                       protection of the bulk electric system. We found that
                       the Commission had established performance measures
                       pertaining to the development, oversight, and compliance of
                       reliability standards related to the bulk electric system. We did
                       not rely on computer-processed data to satisfy our audit
                       objective.

                       An exit conference was held with the Commission on
                       January 25, 2011.




________________________________________________________________
Page 17                                Objective, Scope, and Methodology
Appendix 2

                                  RELATED REPORTS

Office of Inspector General Report

    The Federal Energy Regulatory Commission's Program to Oversee Hydroelectric Dams
    (DOE/IG-0750, December 2006). The Office of Inspector General (OIG) found
    weaknesses in the Federal Energy Regulatory Commission's (Commission) Dam Safety
    Program related to dam security inspection, analysis and review activities. In particular,
    the Commission had not captured, or tracked to resolution, needed dam security
    improvements; ensured that its reviews of the adequacy of dam vulnerability and
    security assessments were documented and subjected to management or quality
    assurance review; and, adequately documented its performance of security inspections.
    The problems occurred, at least in part, because the Commission had not placed
    sufficient emphasis on establishing or enforcing internal controls for its dam security
    inspection and assessment activities.

Government Accountability Office Reports

    Electricity Restructuring: FERC Could Take Additional Steps to Analyze Regional
    Transmission Organizations' Benefits and Performance (GAO-08-987, September
    2008). Commission officials believed Regional Transmission Organizations (RTOs) had
    resulted in benefits, but the Commission had not conducted an empirical analysis of
    RTOs performance or developed a comprehensive set of publicly available, standardized
    measures to evaluate such performance. Without such measures, the Commission would
    remain unable to demonstrate the extent to which RTOs provided consumers and others
    with benefits – information that could aid the Commission in its evaluation of its
    decision to encourage the creation of RTOs and help address divisions about which
    benefits RTOs had provided.

    Information Security: TVA Needs to Address Weaknesses in Control Systems and
    Networks (GAO-08-526, May 2008). The Government Accountability Office (GAO)
    found that the Tennessee Valley Authority (TVA), which must comply with the North
    American Electric Reliability Corporation's reliability standards, had not fully
    implemented appropriate security practices to secure the control systems and networks
    used to operate its critical infrastructures. This occurred because TVA had not
    consistently implemented significant elements of its information security program,
    including: assessing risk; developing policies and procedures; developing security plans;
    testing and monitoring the effectiveness of controls; completing appropriate training;
    and identifying and tracking remedial actions.

   Utility Oversight: Recent Changes in Law Call for Improved Vigilance by FERC (GAO-
   08-289, February 2008). GAO reported that the Commission made few substantive
   changes to either its merger review process or its post-merger oversight since the Energy
   Policy Act of 2005 and, as a result, did not have a strong basis for ensuring that harmful
   cross-subsidization would not occur. The report indicated that a risk-based audit
   approach was an important consideration in efficiently allocating the Commission's
   limited resources to detect non-compliance. In addition, GAO found that the

________________________________________________________________
Page 18                                               Related Reports
Appendix 2 (continued)

  Commission's public audit reports often lacked a clear description of the audit objectives,
  scope, methodology, and findings – inhibiting their use in improving transparency with
  stakeholders or helping Commission staff improve their audit practices.

  Critical Infrastructure Protection: Multiple Efforts to Secure Control Systems Are Under
  Way, but Challenges Remain (GAO-07-1036, September 2007). The GAO found that
  critical infrastructure control systems face increasing risks due to cyber threats, system
  vulnerabilities, and the serious potential impact of attacks as demonstrated by reported
  incidents. Control systems were more vulnerable to cyber attacks than in the past for
  several reasons, including their increased connectivity to other systems and the Internet.
  Multiple private sector entities such as trade associations and standards setting
  organizations were working to help secure control systems. For example, the electricity
  industry developed standards for cyber security of control systems and a gas trade
  association was developing guidance for members to use encryption to secure control
  systems. Federal agencies also had multiple initiatives under way to help secure critical
  infrastructure control systems. However, there was no overall strategy to coordinate the
  various activities across Federal agencies and the private sector.




________________________________________________________________
Page 19                                               Related Reports
Appendix 3




________________________________________________________________
Page 20                                         Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 21                                         Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 22                                         Management Comments
                                                             IG Report No. DOE/IG-0846

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                                ATTN: Customer Relations
If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
